                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

11   Case Number: A-03040016
                                                                                  11          Page 1 of 1



          On 23 April 2003, we received an allegation that a funded NSF proposal (funded proposal)'
          contained ideas taken from one or both of two scientists' Collaborative NSF proposals submitted
          over a 2 year p e r i ~ d .NSFYs
                                      ~  Proposal and Award System (database) indicated that the PI on the
          funded proposal received the most recent Collaborative proposals for review. Consequently, the
          PI was considered the subject in this case.3

          Our review of this matter found that the scientists published two articles4several years after they
          submitted their most recent Collaborative proposals. These articles, which contained discussions
          of the ideas presented by the scientists in the most recent Collaborative proposals, were cited in
          the funded proposal. We also observed that the funded and the most recent Collaborative
          proposals had different project foci.

          We concluded that because 1) the scientists' presented their ideas in publications that were
          appropriately cited in the funded proposal, and 2) the project foci were different for the
          proposals, there was no substance to the allegation that the subject inappropriately used ideas
          from the scientists' Collaborative proposals in the funded proposal.

           This case is closed and no firther action will be taken.




                           proposals for review.
           ' See footnote 1.




 NSF OIG Form 2 (1 1/02)
